                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM
--                         -


Zase Number:             ~D?~TO-                                                           Page 1 of 1




        We received an allegation1that a research project2 in the public schools involving students did
        not receive the proper IRJ3 approval. We sent a letter to the grantee, which responded with
        information about the project and the handling of the complaint in this case. Researchers may
        have assumed that their activities were exempt from disclosure to and evaluation by the
        Institutional Review Board. The administration of the grantee institution took appropriate steps
        to correct this misconception, and submitted the project to IRB committee. The IRB evaluated
        the activities, and provided an exemption from full IRE3 review. This decision is documented in
        the minutes of the IRB meeting.

        Grantee administrative processes with respect to IRB issues and the handling of complaints have
        been reviewed. This particular issue has now been properly evaluated. No further action is
        necessary to ensure that proper IRE3 processes are followed.

        Accordingly, this case is closed.




        '   Redacted.
        ' Redacted.

SF OIG Form 2 (1 1/02)
